APPENDIX A
ORDER
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
February 12, 2021

©

Neutral
As of: April 2, 2021 12:57 PM Z

Rivera v. Horton
United States Court of Appeals for the Sixth Circuit
February 12, 2021, Filed
No. 20-2021
Reporter
2021 U.S.App. LEXIS 4175*

DEREK A. RIVERA, Petitioner-Appellant, v. CONNIE
HORTON, Warden, Respondent-Appellee.

Prior History: Rivera v. Horton. 2020 U.S. Dist. LEXIS
165064. 2020 WL 5417618 (W.D. Mich., Sept. 10, 2020)

Core Terms
district court, trial court, jurists, recommendation,
Appeals, murder, denial of constitutional rights, defense
expert, trial counsel, other-bad-acts, second-degree,
ineffective, admitting, convicted, prepare

Counsel: [*1] DEREK A. RIVERA, Petitioner Appellant, Pro se, Kincheloe, Ml.

For CONNIE HORTON, Warden, RespondentAppellee: Linus Richard Banghart-Linn, Assistant
Attorney General, Andrea M. Christensen-Brown,
Respondents - Appellees, Office of the Attorney
General, Lansing, Ml.

Judges: Before: KETHLEDGE, Circuit Judge.

Opinion

ORDER

Derek A. Rivera, a pro se Michigan prisoner, appeals
the district court's denial of his 28 U.S.C. $ 2254 petition
for a writ of habeas corpus. The court construes his
notice of appeal as an application for a certificate of
appealability ("COA"). See 28 U.S.C. 8 2253(c)(1)(A):
Fed. R. App. P. 22(b)(2).
Rivera was charged with and tried for open murder,
which allows a defendant to be convicted of first-or
second-degree murder or manslaughter, depending on
the proof at trial. See Mich. Comp. Laws 6 767.7V.
People v. Kevorkian. 447 Mich. 436. 527 N.W.2d 714,
718 n.4 (Mich. 1994). A jury convicted him of seconddegree murder, and the trial court sentenced him to 210
to 480 months of imprisonment. The Michigan Court of
Appeals affirmed Rivera's conviction, and the Michigan
Supreme Court denied him leave to appeal. People v.
Rivera. No. 330405. 2017 Mich. Aoo. LEXIS 1501. 2017
WL 4158013 (Mich. Ct. Aoo. Seot. 19. 2017) (per
curiam), perm. app. denied, 501 Mich. 1039, 909
N.W.2d 235 (Mich. 2018).
Rivera then filed this $ 2254 petition, in which he raised
five claims: (1) the trial court erred by admitting otherbad-acts evidence; (2) the trial court erred by requiring
the defense expert to prepare a report [*2] as a
precondition to testifying, and trial counsel was
ineffective for not objecting; (3) insufficient evidence
supported his conviction; (4) his trial counsel was
ineffective for moving for a directed verdict before the
defense expert testified, for failing to sequester the
witnesses, for stating that Rivera would not testify, and
for advising him not to testify; and (5) his conviction was
obtained through cumulative error.
A magistrate judge recommended denying the petition
on the merits. Rivera v. Horton. No. 2:18-CV-217, 2019
U.S. Dist. LEXIS 233386. 2019 WL 11031653 (W.D.
Mich. Dec. 31, 2019). Rivera filed objections to the
magistrate judge's report and recommendation, but the
district court determined that he had raised specific

Page 2 of 2
2021 U.S. App. LEXIS 4175, *2
arguments about only his first claim and part of his
second and thus had not preserved review of the others.
The district court ultimately adopted the magistrate
judge's recommendation, denied claims one and two,
denied Rivera's petition, and declined to issue a COA.
Rivera v. Horton. No. 2:18-CV-217, 2020 U.S. Dist.
LEXIS 165064. 2020 WL 5417618 (W.D. Mich. Sect. 10.

2020).
A court may issue a COA "only if the applicant has
made a substantial showing of the denial of a
constitutional right." 28 U.S.C. 8 2253(c)(2). "That
standard is met when 'reasonable jurists could debate
whether (or, for that matter, agree that) the [*3] petition
should have been resolved in a different manner,"'
Welch v. United States. 136 S. Ct. 1257. 1263. 194 L.
Ed. 2d 387 (2016) (quoting Slack v. McDaniel. 529 U.S.
473. 484. 120 S. Ct. 1595. 146 L. Ed. 2d 542 (2000)). or
when "jurists could conclude the issues presented are
adequate to deserve encouragement to proceed
further," Miller-El v. Cockrell. 537 U.S. 322. 327. 123 S.
Ct. 1029. 154 L. Ed. 2d 931 (2003). When the district
court has denied the petition on procedural grounds, the
petitioner must show that reasonable jurists "would find
it debatable whether the petition states a valid claim of
the denial of a constitutional right and . . . would find it
debatable whether the district court was correct in its
procedural ruling." Slack. 529 U.S. at 484.
"In general, 'the failure to file specific objections to a
magistrate's report constitutes a waiver of those
objections."’ Carter v. Mitchell. 829 F.3d 455. 472 (6th
Cir. 2016) (quoting Cowherd v. Million. 380 F.3d 909.
912 (6th Cir. 2004)). And although Rivera restated all of
his habeas claims in his objections, he did not raise any
arguments about the magistrate judge's analysis of his
third, fourth, or fifth claims. As a result, no reasonable
jurist could debate the district court's denial of those
claims as forfeited.
Rivera first claimed that the trial court erred in admitting
other-bad-acts evidence, as two women testified that he
had a history of violent assaults. The district court
denied this claim because the Supreme Court has never
held "that a state violates due process by [*4]
permitting propensity evidence in the form of other bad
acts evidence." Rivera. 2020 U.S. Dist. LEXIS 165064.
2020 WL 5417618. at *1 (quoting Buah v. Mitchell. 329
F.3d 496. 512 (6th Cir. 2003)). Rivera argued that the
evidence rendered his trial fundamentally unfair. See
Seymour v. Walker. 224 F.3d 542. 552 (6th Cir. 2000).
In rejecting that argument, the district court noted that
the Michigan Court of Appeals held that the evidence

was admitted under Michigan evidentiary rules to show
Rivera's motive and intent, which were relevant to the
first-degree-murder charge embedded in the openmurder count. Rivera. 2017 Mich. Add. LEXIS 1501.
2017 WL 4158013. at *1-2. The district court held that
this ruling was not "so egregious that it resulted] in a
denial of fundamental fairness." Bugh, 329 F.3d at 512.
No reasonable jurist could debate that decision.
Rivera next claimed that the trial court erred in requiring
his expert to produce a report before trial, which he
maintained violated his right to present a defense. The
district court denied this claim because Rivera could not
show that the trial court's ruling was contrary to or an
unreasonable application of federal law. Rivera. 2020
U.S. Dist. LEXIS 165064. 2020 WL 5417618. at *2. The
court noted that Rivera's expert produced the report and
testified at trial. To the extent that Rivera argued that the
ruling violated Michigan law, that state-law claim does
support federal habeas relief. See Estelle v. McGuire,
502 U.S. 62. 68. 112 S. Ct. 475. 116 L. Ed. 2d 385
(1991). To the extent that Rivera argued that the [*5]
ruling gave the prosecutor a better opportunity to
prepare for the defense expert's testimony, he has not
made a substantial showing that this violated a
constitutional right.
Accordingly, Rivera's COA application is DENIED.

End of Document

APPENDIX B
OPINION AND ORDER
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
September 10, 2020

©

Neutral
As of: September 22, 2020 5:14 PM Z

Rivera v. Horton
United States District Court for the Western District of Michigan, Southern Division
September 10, 2020, Decided; September 10, 2020, Filed
Case No. 2:18-CV-217

Reporter
2020 U.S. Dist. LEXIS 165064 *

DEREK A. RIVERA, Petitioner, v. CONNIE HORTON,
Respondent.

Prior History: Rivera v. Horton. 2019 U.S. Dist. LEXIS
233386 (W.D. Mich.. Dec. 31. 2019)

Core Terms
certificate, Recommendation

Counsel: [*1] Derek A. Rivera #967132, Petitioner, Pro
se, Kincheloe, Ml.
For Connie Horton, Warden, Respondent: Andrea M.
Christensen-Brown, Ml Dept Attorney General
(Appellate), Lansing, Ml; Linus Richard Banghart-Linn,
Ml Dept Attorney General (MDOC), Lansing, Ml.

Judges: GORDON J. QUIST, UNITED STATES
DISTRICT JUDGE.

Opinion by: GORDON J. QUIST

Opinion

ORDER ADOPTING REPORT AND
RECOMMENDATION AND DENYING PETITIONER'S
HABEAS PETITION
The matter before the Court is a habeas corpus petition
filed pursuant to 28 U.S.C. 8 2254. The matter was
referred to Magistrate Judge Maarten Vermaat, who
issued a Report and Recommendation (R & R),
recommending that the Court deny Rivera's petition and
deny a certificate of appealability. (ECF No. 12.) Rivera
filed objections to the R & R. (ECF No. 13.)
Upon receiving objections to an R & R, the district judge
"shall make a de novo determination of those portions of
the report or specified proposed findings or
recommendations to which objection is made." 28
U.S.C. § 636(b)(1). This Court may accept, reject, or
modify any or all of the magistrate judge's findings or
recommendations. 28 U.S.C. $ 636(b)(1); Fed. R. Civ.
P. 72(b).
After conducting a de novo review of the R & R, the
objections, and the pertinent portions of the record, the
Court concludes that the R & R should [*2] be adopted
and Rivera's habeas petition should be denied. The
Court will address Rivera's objections in turn.

General Objections
Rivera asserted five grounds of relief in his habeas
petition. In his objections, Rivera restates all five claims
but does not specify issues of contention on several of
the grounds. The Court interprets the restatement of
each ground as a general objection. A general objection
that is not specific is not entitled to a de novo review
under the statute. Mira v. Marshall. 806 F.2d 636, 637

Page 3 of 4
Rivera v. Horton
(6th Cir. 1986) (per curiam). Therefore, the Court will
address only the objections that are identified in the
"Reason for Granting Petition" section.

Other Acts Evidence
Rivera objects to the magistrate judge's determination
that it was not contrary to clearly established federal law
for the state courts to allow the prosecutor to introduce
other acts evidence at trial. The other acts evidence
included testimony from two women regarding Rivera's
history of violent assaults. The Michigan Court of
Appeals concluded that the other acts evidence was
properly admitted under the Michigan Rules of
Evidence. (ECF No. 8-11 at PagelD.313.)
The Supreme Court has addressed the admission of
other acts evidence in the context of the Federal [*3]
Rules of Evidence but not in the context of whether
admission of other acts evidence could violate the
Constitution. See Old Chief v. United States, 519 U.S.
172. 117 S. Ct. 644, 136 L. Ed. 2d 574 (1997). As the
magistrate judge correctly noted, the Sixth Circuit has
found that "[tjhere is no clearly established Supreme
Court precedent which holds that a state violates due
process by permitting propensity evidence in the form of
other bad acts evidence." Bugh v. Mitchell, 329 F.3d
496, 512 (6th Cir. 2003). Therefore, there being no
clearly established federal law holding the admission of
other acts evidence violates due process, Rivera is not
entitled to habeas relief on this issue.
Rivera also argues that the admission of the other acts
evidence made the trial fundamentally unfair. "When an
evidentiary ruling is so egregious that it results in a
denial of fundamental fairness, it may violate due
process and thus warrant habeas relief." Id. "Generally,
state-court evidentiary rulings cannot rise to the level of
due process violations unless they 'offend[ ] some
principle of justice so rooted in the traditions and
conscience of our people as to be ranked as
fundamental.'" Seymour v. Walker. 224 F.3d 542, 552
(6th Cir. 2000) (quoting Montana v. Egelhoff, 518 U.S.
37, 43. 116 S. Ct. 2013. 2017. 135 L. Ed. 2d 361
(1996)).
In the instant case, the other acts evidence was
permitted to show motive and intent. As the Michigan
Court of Appeal explained,
[T]he [*4] other acts evidence in question was
logically relevant to these purposes. See People v

Crawford. 458 Mich 376. 388. 582 N.W.2d 785: 458
Mich. 376, 582 NW2d 785 (1998).The jury was
instructed on first-degree murder which requires a
premediated intent to kill the victim that may be
shown from all the facts and circumstances
surrounding the killing, including the prior
relationship of the parties, a preconceived motive,
and a defendant's conduct after the crime. People v
Orr. 275 Mich Add 587. 591. 739 N.W.2d 385: 275
Mich. Add. 587. 739 NW2d 385 (2007): People v
Tavlor, 275 Mich Add 177. 180. 737 N.W.2d 790:
275 Mich. Add. 177. 737 NW2d 790 (2007). In this
context, defendant's violence toward Lewis and the
accompanying threat—that if she ever spoke "a
word" to the police "about what happened with
[Alber] the same thing would happen to" her—
belies the defense's theory that Alber's death was
an accident and it is relevant to show defendant's
intent.
Likewise,
Schmit's testimony about
defendant's assault on her and Alber on a previous
occasion provided evidence of defendant's motive
for killing Alber—an explosive jealousy of the
friendship between Schmit and Alber; and, this
preconceived motive bears on whether defendant
intended to kill Alber. See Orr, 275 Mich Add at
592. In short, the evidence was logically relevant.
(ECF No. 8-11 at PagelD.313.)
Having reviewed the record, the Court finds that Rivera
has not met his burden of showing that the admission of
the other acts evidence [*5] was erroneous or that it
rendered his trial fundamentally unfair. Although the
other acts "evidence may have been detrimental to
[Rivera], ... it had strong probative value and was not
unfairly prejudicial." (Id. at PagelD.314.) Several
witnesses testified seeing Rivera hit the victim, and
blood was found on Rivera's shoes. Rivera admitted
kicking the victim.1 The defense argued that the victim
died when he fell and hit his head on a cinder block.
Rivera has not shown that the other acts evidence
««>'
rendered his trial fundamentally unfair.

Defense Expert's Report
Rivera also appears to object to the magistrate judge's
determination that Rivera is not entitled to habeas relief
based on the state court having required the defense
expert to produce a report before trial. The magistrate

1 Rivera disputes that he made this admission during the
police interview. He claims that he was simply agreeing with
the police officer's version of events.

Page 4 of 4
Rivera v. Horton
judge determined that (1) whether the trial court
complied with a state court rule is not cognizable on
habeas review; (2) requiring an expert's report as a
condition to the expert's testimony is not contrary to, or
an unreasonable application of, clearly established
federal law, and (3) the state court's harmless error
analysis was objectively reasonable and, therefore,
precludes habeas relief on this issue. [*6]

debatable or wrong." For the reasons stated above, the
Court finds that reasonable jurists could not find that this
Court's denial of Rivera's claims was debatable or
wrong. Thus, the Court will deny Rivera a certificate of
appealability.

Rivera does not offer any specific objection other than
his right to present a defense was violated. It is unclear
why Rivera argues that his right to present a meaningful
defense was violated. His expert witness produced a
report and testified at trial. Rivera claims—without citing
any specific testimony—that "the prosecution seized on
the perceived inadequacies in the report to reject [the
expert's] causation testimony in favor of the
prosecution's report." (ECF No. 1 at PagelD.8.) The
state court determined that "[o]n this record, we fail to
see how defendant was prejudiced by being required to
produce a report, and we cannot conclude that
defendant has shown plain error." (ECF No. 8-11 at
PagelD.315.) Requiring an expert's report as a condition
to the expert's testimony is not contrary to, or an
unreasonable application of, clearly established federal
law. Furthermore, Rivera does not object to the
magistrate judge's determination that the state court's
harmless error analysis was objectively reasonable.

Having reviewed all of Rivera's objections and finding no
basis for habeas relief,

Conclusion

IT IS HEREBY ORDERED that the Report and
Recommendation (ECF No. 12) is approved and
adopted as the Opinion of the Court.
IT IS FURTHER ORDERED that Rivera's habeas
corpus petition (ECF No. 1) is DENIED for [*8] the
reasons set forth in the Report and Recommendation.
IT IS FURTHER ORDERED that Rivera is DENIED a
certificate of appealability.
A separate judgment will enter.
This case is concluded.
Dated: September 10, 2020
Isl Gordon J. Quist
GORDON J. QUIST

Certificate of Appealability
UNITED STATES DISTRICT JUDGE
Pursuant to 28 U.S.C. § 2253(c)(2), the Court must also
determine whether a certificate of appealability should
be granted. A certificate should issue if Rivera has
demonstrated [*7] a "substantial showing of a denial of
a constitutional right." 28 U.S.C. $ 2253(c)(2). The Sixth
Circuit has disapproved issuance of blanket denials of a
certificate of appealability. Murphy v. Ohio, 263 F.3d
466, 467 (6th Cir. 2001). Rather, the district court must
"engage in a reasoned assessment of each claim" to
determine whether a certificate is warranted. Id. at 467.
Each issue must be considered under the standards set
forth by the Supreme Court in Slack v. McDaniel, 529
U.S. 473. 120 S. Ct. 1595. 146 L. Ed. 2d 542 (2000):
Murphy, 263 F.3d at 467. Therefore, the Court has
considered Rivera's claims, including his objections,
under the Slack standard.
Under Slack. 529 U.S. at 484. 120 S. Ct. at 1604. to
warrant a grant of the certificate, "[t]he petitioner must
demonstrate that reasonable jurists would find the
district court's assessment of the constitutional claims

End ofDocumeiit

r

